o-No:

1

/
;

j

_/ -

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

DEC 2 1 2020
OFFICE OF THE CLPa*

DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,
PETITIONER,

-vsETHICON INC, et al,
ETHICON ENDO-SURGERY INC., et al
JOHNSON & JOHNSON, INC., et al
RESPONDENT,

ON PETITION FOR A WRIT OF CERTIORARI TO
THE U.S. FOURTH CIRCUIT COURT OF APPEALS
PETITION FOR A WRIT OF CERTIORART
Date:

-r~t

CC: Respondent
File

PETITIONER IN PRO PER
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

QUESTIONS PRESENTED
QUESTION ONE
DID THE U.S. DISTRICT COURT AND U.S. FOURTH CIRCUIT COURT OF APPEALS
JUSTICES ABUSE THEIR DISCRETION, CREATE MANIFEST INJUSTICE,
SUBSTANTIALLY ERR, PREJUDICE, AND HAVE A LEGAL DUTY, OBLIGATION,
AND SWORN JUDICIAL OATH TO MAKE A WRITTEN DECISION UNDER RULE 60
ON WHETHER THE RESPONDENT ETHICON CORPORATE ATTORNEYS
INTENTIONALLY AND IN BAD FAITH KNOWINGLY COMMITTED FRAUD UPON
THE COURT TO OBTAIN A WRONGFUL SUMMARY JUDGMENT ENTRY/ORDER
FOR FINANCIAL GAIN IN THE U.S. DISTRICT COURT AND APPEAL BY RIGHT IN
THE U.S. FOURTH CIRCUIT COURT OF APPEALS IN ORDER, TO PROTECT
RESPONDENT(S) ETHICON TO CONTINUE TO UNLAWFULLY MANUFACTURE
DANGEROUS AND DEFECTIVE POLYPROPYLENE(ie, COMMON PLASTIC) MESH
AND SUTURE PRODUCTS THAT WAS NEVER INTENDED TO BE IMPLANTED IN
THE HUMAN BODY IN VIOLATION OF FEDERAL LAW?
QUESTION TWO
DID THE U.S. DISTRICT COURT AND U.S. FOURTH CIRCUIT COURT OF APPEALS
JUSTICES ABUSE THEIR DISCRETION, CREATE MANIFEST INJUSTICE,
SUBSTANTIALLY ERR, PREJUDICE, AND HAVE A LEGAL DUTY OR OBLIGATION,
AND SWORN JUDICIAL OATH TO PROTECT THE GENERAL PUBLIC BY ISSUING
A ORDER TO RESPONDENT(S) ETHICON TO CEASE AND DESIST FROM
CONTINUING TO UNLAWFULLY MANUFACTURING/SELLING NON-DISSOLVING
DANGEROUS AND DEEECTIVE POLYPROPYLENE (COMMON PLASTIC)
ADULTERATED MESH AND SUTURE PRODUCTS TO GENERAL PUBLIC THAT
WAS NEVER INTENDED TO BE IMPLANTED IN THE HUMAN BODY IN
VIOLATION OF FEDERAL LAW?
LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows^
Petitioner In Pro Per
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WV 25088

Respondent ETHICON et al
Thomas Combs, and Spann, PLLC
300 Summers St, Suite 1380
Charleston, West Virginia, 25338-3824

TABLE OF CONTENTS
OPINIONS BELOW

1

>>>>>>>>

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-9

REASONS FOR GRANTING THE WRIT
CONCLUSION

9-28
29

INDEX TO APPENDICES
APPENDIX A
09/18/2020 Fourth Circuit Court of Appeals Ad Hoc Mandate Order
denying Petition For En Banc Rehearing as untimely under Local Rule 40(c), but was not
untimely when not counting weekends, holidays, and delays in US Postal and Clerks
Office processing due to the Covid-19 Pandemic.

APPENDIX B
09/15/2020 Fourth Circuit Court of Appeals Ad Hoc Order denying
Petition For En Banc Rehearing as untimely under Local Rule 40(c), but was not
untimely when not counting weekends, holidays, and delays in US Postal and Clerks
Office processing due to the Covid-19 Pandemic.

APPENDIX C
08/27/2020 Fourth Circuit Court of Appeals Ad Hoc Order denying
Appeal By Right without issuing opinion/order on whether Respondent Ethicon Corporate
Attorneys committed Fraud Upon the Court in Summary Judgment or under Rule 60
Relief From Judgment.

APPENDIX C
08/27/2020 Fourth Circuit Court of Appeals Unpublished Ad Hoc
Order denying Appeal By Right simply to clear the appellate court docket without issuing
opinion/order on whether Respondent Ethicon Corporate Attorneys knowingly,
intentionally and in bad faith committed Fraud Upon the Court in Summary Judgment
or under rule 60 Relief From Judgment, based upon overwhelming literal evidence.

APPENDIX D
08/27/2020 Fourth Circuit Court of Appeals Unpublished Ad Hoc
Order denying Appeal By Right simply to clear the appellate court docket without issuing
opinion/order on whether Respondent Ethicon Corporate Attorneys knowingly,
intentionally and in bad faith committed Fraud Upon the Court in Summary Judgment
or under Rule 60 Relief From Judgment, based upon overwhelming literal evidence.

APPENDIX...E 02/24/2020 U.S. District Court For Southern WV Ad Hoc “Order” denying
Rule 60 Motion For Relief From Judgment without issuing opinion/order on whether
Respondent Ethicon Corporate Attorneys knowingly, intentionally and in bad faith
committed Fraud Upon the Court in Summary Judgment or under Rule 60 Relief From
Judgment, based upon overwhelming literal evidence.

APPENDIX
F 02/07/2020 U.S. District Court For Southern WV Ad hoc “Judgment
Order” dismissing Civil Action, and granting Summary Judgment without issuing
opinion/order on whether Respondent Ethicon Corporate Attorneys knowingly,
intentionally and in bad faith committed Fraud Upon the Court in Summary Judgment,
based upon overwhelming literal evidence.

APPENDIX..... G 02/07/2020 U.S. District Court For Southern WV “Memorandum
Opinion and Order” dismissing Civil Action, and granting Summary Judgment without
issuing opinion/order on whether Respondent Ethicon Corporate Attorneys knowingly,
intentionally and in bad faith committed Fraud Upon the Court in Summary Judgment,
based upon overwhelming literal evidence.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Ackermann v. United States. 340 U.S. 193, 199-202, 71 S.Ct. 209, 212-14(1950)

11

Afifi v. United States Dept, of Interior. 924 F2d 61, 64(4th Cir.1991)

14

ALLEN V MCCIJRRY. 449 U.S. 90, 94(1980)

9

Barnes v. Sears. Roebuck & Co.. 406 F2d 859, 86l(4th Cir.1969)

18

Barrier v. Beaver. 712 F.2d 231, 234 (6th Cir. 1983)

12

Blue Diamond Coal v. Trustees of UMWA Fund. 249 F.3d 519, 529 (6th Cir. 2001)

11

Bd. of Metal Workers Fund v. Elite Erectors. Inc.. 212 F.3d 103l(7th Cir. 2000))

12

Bradv v. Maryland - 373 U.S. 83(1963)

20

BROWN V FELSON, 442 U.S. 127(1979)
Caudill v. Wise Rambler. 210 Va. 11, 13, 168 SE 2d 257, 259(1969)
Celotex Corn, v. Catrett. 477 U.S. 317, 324-25 (1986)
Commodity Futures Trading Comm'n v. Schor. 478 US 833, 849-850(1986)
Cooter & Gell v. Hartmarx Corp.. 496 U.S. 384, 405 (1990)

9
17
4, 24
16
12, 24

DAVIDSON CHEVROLET INC. V CITY-CO OF DENVER. 330 P.2d 1116(1958)

20

Dennis v. United States. 341 US 494(1951)

25

Ford Motor Co. v. Mustangs Unlimited. Inc.. 487 F.3d 465, 468(6th Cir. 2007)

11

General Atomics v. NRC. 75 F3D 536, 539-40(9TH Cir., 1996)

14

Gunn v. United States Dept, of Agriculture. 118 F3d 1233,1240(8th Cir.1997)

14

HAYS V POSTMASTER GENERAL. 868 F2d 328, 33l(9th Cir. 1989)

15

Hazel-Atlas Glass Co. v Hartford-Empire Co.. 322 U.S. 238 (1944)

21

Vid
Hendricks v. Boston Scientific Corp.. 51 F. Supp. 3d 638(SD West Virginia 2014)

9

Hopper v. Euclid Manor Nursing Home. Inc.. 867 F.2d 291, 294 (6th Cir. 1989).... 12, 24
Jones v. Ill. Cent. R.R. Co.. 617 F.3d 9843, 850 (6th Cir. 2010)

12. 24

Kelly v. Bergh. No. 07-13259, 2009 WL 5217677, at *2 (E.D. Mich. Dec. 28, 2009)....12
Koon v. United States. 518 U.S. 81, 100 (1996)

12, 24

Locke v. Johns-Manville Corp. 275 SE 2d 900, Va^ Supreme Court(l98l)

17

Louisville and Nashville Railroad v. Saltzer. 151 Va. 165, 168(1928)

18

Marine Insurance Company of Alexandria v. Hodgson. 11 U.S. 332 (1813)

21

Marshall v. Holmes. 141 U.S. 589 (1891)

21

Matsushita Elec. Indus. Co. v. Zenith Radio Corp.. 475 U.S. 574, 587 (1986)

23

MILLER V HAMBRICK. 905 F2d 259, 262(9th Cir. 1990)

14

MILLIKEN V MEYER. 311 U.S. 457, 61 Set 339, 85 LEd2d 278(1940)

20

Pile v. Henry & Wright Corp.. 910 F.2d 357, 365 (6th Cir. 1990)

11, 12

Olmstead v. United States. 277 U.S. 438, 485, 48 S.Ct. 564, 575(1928)

20

Pennekamn v. Florida. 328 US 331(1946)

25

Phillips v. Seiter. 173 F. 3d 609(7th Cir. 1999)

14

Pierce v. United Mine Workers of America Fund. 770 F.2d 449, 451 (6th Cir. 1985).. 12
RODRIQUEZ-ROMAN V INS. 98 F3d 416, 423(9th Cir 1996)

14

Roe 11 v. Withrow. 538 US 580(2003)

16

Sanchez v, Boston Scientific Corp.. 38 F. Supp. 3d 727(SD West Virginia 2014)

9

SIDES V RICHARD MACHINE WORKS INC. 406 F2d 445, 446(4th Cir. 1969)

17

STEINFELD V HODDTCK 513 U.S. 809(1994)

20

Stokes v. Williams. 475 F.3d 732, 735 (6th Cir. 2007)

12

Thompson v. Bell. 580 F.3d 423, 442 (6th Cir. 2009)

11

Tvler v. Maewire. 84 U.S. 253 (1872)

20

United States v. A & P Trucking Co.. 358 US 121(1958)

25

U.S. v. Automated Medical Laboratories. Inc.. 770 F. 2d 399(4th Circuit 1985)

26

United States v. Basic Const. Co.. 711 F. 2d 570(4th Circuit, 1983)

26

United States v. Curtiss-Wright Export Corp.. 299 US 304(1936)

25

United States v. Dotterweich. 320 US 277(1943)

25

United States v. FMC Corp.. 572 F. 2d 902(2nd Circuit, 1978)

26

United States v. General Motors Corp..384 U.S. 127 (1966)

25

United States v. General Motors Corp.. Case U15-cv-073429(S.D. N.Y.)

26

United States v. Halper. 490 US 435(1989)

26

United States v. International Minerals & Chemical Corp.. 402 US 558(1971)

25

United States v. Johnson & Towers. Inc.. 741 F. 2d 662(3rd Circuit 1984)

26

United States v. Konners Co.. Inc.. 652 F. 2d 290(2nd Circuit 1981)

26

United States v. National Dairy Products Corp.. 372 US 29 (1963)

25

U.S. v. Nippon Paper Industries Co.. Ltd.. 109 F. 3d l(lst Circuit 1997)

26

United States v. Park. 421 US 658(1975)

25

U.S. v. Tanaka et al.. Court Docket No.: 16-cr-20810-GCS-EAS (E.D. Michigan)

26

U.S. v. Twentieth Century Fox Film Corp.. 882 F. 2d 656(2nd Circuit 1989)

26

United Student Aid Funds v. Espinosa. 559 U.S. 260, 271 (2010)

12

Upjohn Co. v. United States. 449 US 383(1981)

25

Yeschick v. Mineta. 675 F.3d 622, 628 (6th Cir. 2012)

12, 24

STATUTES AND RULES
21 U.S.C. 331(a)

25

21 USC 333(a)(2)

25

21 U.S.C. 351(f)(1)(B)

25

28 USC 455

15

28 USC 636(c)

15

28 U. S. C. § 636(c)(1)

15

28 U.S.C. § 1631

14

FRCiv.P Rule 26(a)(l)(I-II)

6

FRCiv.P Rule 26(a)(3)(A) et seq

6

Fed.Civ. Court Rule 27

6

Fed.Civ. Court Rule 28

6

Fed.Civ. Court Rule 29

6

Fed.Civ. Court Rule 30

6

Fed.Civ. Court Rule 31

6

Fed.Civ. Court Rule 32

6

Fed.Civ. Court Rule 33

6

Fed.Civ. Court Rule 35

6

Fed.Civ. Court Rule 60 et seq

10

Fed.Civ. Court Rule3(a)(2).....

15

XL

PETITIONERS PRO SE
APPENDIX OF APPENDICES/EXHIBITS
INDEX

PAGES

APPENDIX A
09/18/2020 Fourth Circuit Court of Appeals Ad Hoc
Mandate Order denying Petition For En Banc Rehearing as untimely
under Local Rule 40(c), but was not untimely when not counting weekends,
holidays, and delays in US Postal and Clerks Office processing due to
the Covid-19 Pandemic................................................................................................

Pg

APPENDIX B
09/15/2020 Fourth Circuit Court of Appeals Ad Hoc
Order denying Petition For En Banc Rehearing as untimely
under Local Rule 40(c), but was not untimely when not counting weekends,
holidays, and delays in US Postal and Clerks Office processing due to
the Covid-19 Pandemic................................................................................................

Pg

APPENDIX C
08/27/2020 Fourth Circuit Court of Appeals Ad Hoc
Order denying Appeal By Right without issuing opinion/order on
whether Respondent Ethicon Corporate Attorneys committed
Fraud Upon the Court in Summary Judgment or under Rule 60
Relief From Judgment............................................................................

Pg

APPENDIX C
08/27/2020 Fourth Circuit Court of Appeals Unpublished
Ad Hoc Order denying Appeal By Right simply to clear the
Appellate Court Docket without issuing opinion/order on whether
Respondent Ethicon Corporate Attorneys knowingly, intentionally and in bad faith
committed Fraud Upon the Court in Summary Judgment or under Rule 60
Relief From Judgment, based upon overwhelmihg literal evidence....................... ........ Pg

APPENDIX D......... 08/27/2020 Fourth Circuit Court of Appeals Unpublished
Ad Hoc Order denying Appeal By Right simply to clear the
Appellate Court Docket without issuing opinion/order on whether
Respondent Ethicon Corporate Attorneys knowingly, intentionally and in bad faith
committed Fraud Upon the Court in Summary Judgment or under Rule 60
Relief From Judgment, based upon overwhelming literal evidence...................... ......... Pg

APPENDIX...E 02/24/2020 U.S. District Court For Southern WV Ad Hoc
“Order” denying Rule 60 Motion For Relief From Judgment without issuing
opinion/order on whether Respondent Ethicon Corporate Attorneys
knowingly, intentionally and in bad faith committed Fraud Upon the Court
in Summary Judgment or under Rule 60 Relief From Judgment
based upon overwhelming literal evidence.............................................................

Pg

APPENDIX..... F 02/07/2020 U.S. District Court For Southern WV Ad hoc
“Judgment Order” dismissing Civil Action, and granting Summary Judgment
without issuing opinion/order on whether Respondent Ethicon Corporate Attorneys
knowingly, intentionally and in bad faith committed Fraud Upon the Court
in Summary Judgment, based upon overwhelming literal evidence.............................. Pg

APPENDIX
G 02/07/2020 U.S. District Court For Southern WV
“Memorandum Opinion and Order” dismissing Civil Action, and erroneously
granting Summary Judgment without issuing opinion/order on whether
Respondent Ethicon Corporate Attorneys knowingly, intentionally and in bad faith
committed Fraud Upon the Court in Summary Judgment, based upon
overwhelming literal evidence................................................................................ ................ Pg
APPENDIX..... H 03/28.2017 LETTER FROM DR K.A. LOVIN PA-C MS
DECLARING PETITIONER’S MEDICAL DIAGNOSIS OF COMPLICATIONS
FROM HERNIA MESH.............................................................................................

Pg

APPENDIX..... I PETITIONER’S PRE-SURGERY MEDICAL RECORDS

Pg

APPENDIX..... J PETITIONER’S SURGICAL MEDICAL RECORDS
WITH STICKERS FILED ECF #17 PGS 24-.............................................

Pg

APPENDIX..... K PETITIONER’S EMAILS FROM DEFENDANTS ETHICON
EX-CORPORATE ATTORNEY- GORDON MOWEN ACKNOWLEDGING THAT
THEY GOT ALL PLAINTIFFS MEDICAL RECORDS AND THAT THEY
WOULD PROVIDE PETITIONERS WITH COPY OF THE DISCOVERY
MEDICAL RECORDS AS ORDERED BY FED JUDGE GOODWIN.............. .........

Pg

APPENDIX.....L RESPONDENTS ETHICON U.S. PATENT AND EPA 501K
PREMARKET APPLICATION REFLECTING SAID DEFENDANTS ETHICON
POLYPROPYLENE 3-0 VICRYL HERNIA MESH AND 3-0 VICRYL SUTURES
ADMISSIONS................................................................................................................
APPENDIX.....M US. DISTRICT COURT JUDGE JOSEPH GOODWIN
NON-EXPERT MEDICAL ORDER FOR THOUSANDS OF
POLYPROPYLENE VAGINA MESH(SAME AS HERNIA MESH)
BE SURGICALLY REMOVED OR THEIR CASES WILL BE DISMISSED,
UNLESS YOUR MEMBER OF A MESH CLASS ACTION LAWSUIT
REPRESENTED BY CORPORATE ATTORNEYS..........................................

T/ii
Pg

Pg

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of Certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from Federal Courts:
The opinion of the United States Court of Appeals appears at Appendix to the
petition and is
[ ] reported at ; or, [ ] has been designated for publication but is not
yet reported; or, [X] is unpublished.
The opinion of the United States district court appears at Appendix to the
petition and is
[ ] reported at ; or, [ ] has been designated for publication but is not
yet reported; or, [X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix to the petition and is
[ ] reported at ; or, [ ] has been designated for publication but is not
yet reported; or, [ ] is unpublished.
The opinion of the court appears at Appendix to the petition and is
[ ] reported at ; or, [ ] has been designated for publication but is not
yet reported; or, [ ] is unpublished.

1

JURISDICTION
[X] For cases from Federal Courts:
The date on which the United States Court of Appeals decided my case
was^
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the U.S. Fourth Circuit Court of
Appeals on SEPTEMBER 15r2020 per Local Rule 40(c), but was not untimely
when not counting weekends, and delays in US Postal and Clerks Office
processing due to the Covid-19 Pandemic a copy of order appears at Appendix.
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including (date) on (date) in Application No. A .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

[ ] For cases from state courts:
The date on which the highest state court decided my case was . A copy of that
decision appears at Appendix .
[ ] A timely petition for rehearing was thereafter denied on the following date: ;
and a copy of the order denying rehearing appears at Appendix .
[ ] An extension of time to file the petition for a writ of certiorari was granted to
and including (date) on (date) in Application No. A .

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14th Amendment of the U.S. Constitution
21 U.S.C. 331(a)
21 USC 333(a)(2)
21 U.S.C. 351(f)(1)(B)
28 USC 455
28 USC 636(c)
28 U. S. C. § 636(c)(1)
28 U.S.C. § 1631

3

STATEMENT OF THE CASE
On the Certiorari at bar, On MAY 5.2017. These Petitioner(s) timely filed this
Federal Complaint against the Respondent(s) ETHICON with Sworn Affidavit that in
2007 surgery took place in Virginia, but that the Petitioner(s) did not start having
complications from Respondent(s) ETHICON Polypropylene hernia mesh and suture
product until 2016; and that these Petitioner(s) had to file a formal written Federal
Judicial Complaint against this U.S. District Court For The Southern District of West
Virginia Judge JOSEPH GOODWIN with the Chief Justice in the Honorable U.S. Fourth
Circuit Court of Appeals to even process, screen, serve, and prosecute this extremely
meritorious Complaint For Civil Action under the inapplicable Federal PRISONER
STATUTE, 28 USC 1915.(See DC ECF#2, and #6).
On

October

5.2017.

The

Respondent(s)

ETHICON

Corporate

Attorneys

intentionally and in bad faith file its first convoluted “Answer and Defenses of
Respondent(s) Ethicon Inc. To Petitioner(s) Complaint” asserting 80 vague atypical
defenses, via, inadmissble third party attorney heresy, without citing any supporting case
law, and of course without any sworn affidavits (and NEVER did) or exhibits to the claims
asserted against the Respondent(s) ETHICON as required in the clearly established and
determined in the U.S. Supreme Court case Celotex Corp. v. Catrett. 477 U.S. 317, 32425 (1986).
This Petitioner(s) was/is the Original Party to this Complaint Civil Action as well
as Administrator, Executor, and Sole Beneficiary with no creditors on the Estate of
Petitioner(s) William Perry Newhouse III. That concurs with the Respondent(s) Proxy
Corporate Attorneys that

Petitioner(s)

William Perry Newhouse
4

III,

and this

Petitioner(s)’s Son died on NOVEMBER 16r2018 AT 5-45 PM from Respondent(s)
ETHICON well-known defective, deadly, and dangerous Polypropylene hernia mesh and
sutures products, and these Petitioner(s) Expert Witnesses will testify under oath to the
Medical Records Records that the Respondent(s) ETHICON Corporate Attorneys already
obtained from said Medical Doctors/Hospitals, and were already served copies of in. (See
DC ECF #2, #17, and #136).
On JULY 24.2019. The U.S. District Court Judge For The Southern District of
West Virginia held a hearing(ECF #106), and ordered the Respondent(s) ETHICON
Senior Corporate Attorney PHILLIP J. COMBS et al to obtain this Pro Se Petitioner(s)
Medical Records, and to provide this Petitioner(s) with a copy of any/all Discovery(eg,
Plaintif(s) Medical Records) the Respondent(s) Corporate Attorneys get/obtain.
On JANUARY 13.2020. The Respondent(s) Newly Assigned Proxy Corporate
Attorney NATALIE B. ATKINSON intentionally and in bad faith knowingly committed
FRAUD UPON THE COURT by filing a redundant fraudulent, subjective and misleading
“Reply To Petitioner(s)’s Motion For Objection and Strike Respondent(s) Motion For
Summary Judgment and Demand For Sanctions(ECF #133); Respondent(s) Motion To
Strike Affidavit of Petitioner(s) Delva Newhouse(ECF #134) Respondent(s) Motion To
Renew Motion To Dismiss For Failure To Comply with Discover}' Obligations and this
Court’s Order(ECF #135)” that was intentionally and in bad faith knowingly falsely
alleged and literally mislead U.S. District Court For The Southern District of West
Virginia Judge JOSEPH R. GOODWIN that:
(A) This Petitioner(s) has not answered Interrogatories or Questions at
Deposition directed to the Petitioner(s)-Appellant(s) that was literally Objected to in
writing by Right by this Petitioner(s);
5

(B) That the Petitioner(s)-Appellant(s) have not provided the Respondent(s)
Corporate Attorneys with Discoveiy, Admissions, ect, and/or seeks discovery that will be
used for impeachment purposes at Jury Trial, pursuant to clearly established FRCiv.P
Rule 26(a)(l)(ITI), and FRCiv.P Rule 26(a)(3)(A) et seqJ
(C) That the Petitioner(s) Delva Newhouse Sworn Affidavit is a “sham”, and
thus Petitioner(s) demands to be prosecuted to get a Jury Trial or the Respondent(s)
Corporate Attorneys will be prosecuted for knowingly making/filing misleading and false
statements in their dispositive pleadings to unlawfully obtain a erroneous judgment);
(D) Demanding that this Petitioner(s) answer inadmissible heresy
Interrogatories and answer subjective questions at contested Depositions about Doctor
Experts Opinions, in futile attempt, to unlawfully summarily dismiss this very
meritorious Civil Action Complaint by Respondent(s) Newly Assigned Corp Attorney
filing a frivolous Motion To Dismiss for allegedly failing to answer Interrogatories,
Deposition, and disclose Discovery.
(E) and intentionally and in bad faith to deceive/mislead this Federal Court
by knowingly falsely asserting in their summary judgment that Respondent(s) ETHICON
p olvp r op vie ne (ie, plastic) 3-0 Vicryl Hernia Mesh and 3-0 Vicryl Sutures was not
implanted into the deceased Petitioner(s)’s human body and its not their defective
product, and that there exists absolutely no Respondent(s) ETHICON U.S. Patents or
EPA 501k Premarket Applications unambiguously lists polypropylene in their hernia
mesh or suture products asserting that its completely safe to the EPA.
The problem is on NOVEMBER 20f2017. These Petitioner(s) already previously
filed a “Motion For Objection and To Strike Respondent(s) Answers and Defenses To
Complaint” with Sworn Affidavits, and Exhibits with the attached medical records with
“stickers” described in deposition that Respondent(s) ETHICON New Corporate Attorney
intentionally and in bad faith literally falsely mislead the U.S. District Court Judge they
were not provided with bv this Petitioner(s) to wrongfully obtain judgment entry bv
summary judgment to warrant sanctioning Respondent(s) Corp Attorneys). (See DC ECF
17, 133, 134, and 135). See Petitioner’s Appendixs H through K
These Petitioner(s) also previous filed a “Demand For Immediate Hospital Bed
Deposition and Physical Examination, per Fed.Civ. Court Rules 27, 28, 29, 30, 31, 32, 33,
and 35), including Plaintiff(s) Motion For Declaratory Judgment on any case and
controversy(ECF #65), and this Petitioner(s) Motion For Objection to Magistrate’s Report
6

and Recommendation Ad Hoc Order denying this Petitioner(s) Motion For Declaratory
Judgment regarding the actual claims/issues on the actual case and controversy to
expedite this prosecution of this case for Jury Trial. Whether this Petitioner(s) Civil
Action Claims should be scheduled for Jury Trial by her Peers from a proper cross-section
of society over the Respondent(s) ETHICON well-known defective polypropylene hernia
mesh and suture products that has been manufactured for decades causing injury and
why it has not been taken off market like lead/toy/auto/food products are, and that injury
occurred in 2016. (See DC ECF#2, #17, and #136).
This Petitioner even timely filed written Motion For Objection by Right regarding
disco very/deposition, and demanded a hearing. That the Petitioner(s) signed TWO
medical record release forms while Petitioner(fl) William Perry Newhouae was still alive
for the Respondent(s) Corporate Attorneys to get any/all of the Petitioner(s)’s Medical
Records from both the CHARLESTON MEDICAL CENTER and UNIVERSITY OF
VIRGINIA HEALTH SYSTEM. That treated Petitioner(s) Willliam P. Newhouse III for
the Respondent(s) ETHICON defective polypropylene products. So the Respondent(s)
Corporate Attorneys cannot assert they never got this or that medical record, in order, for
the Respondent(s) Corporate Attorneys to quit sandbagging and playing games for
demanded Jury Trial they know they would loose anyways.
And that the Respondent(s) Original Corporate Attorney GORDON MQWEN even
sent emails to this Petitioner that before he exits the law firm that he will get the medical
records identifying the Respondent(s) ETHICON VICRYL Polypropylene hernia mesh
and suture products used throughout the medical records, and the ask for a 90-Day
extension to do depositions. (See DC ECF#136). See Petitioner’s Appendix K.
7

It should also be noted, That all of the Respondent.(s) ETHICON Corporate
Attorneys also failed to depose any doctors, experts, or anjr Petitioner(s) defense
witnesses listed for scheduled Jury Trial to seek further unnecessary delays to do
this/that. After this Petitioner(s) stated a claim upon which relief must be granted that
any reasonable juror/jurists would rule in Petitioner(s)’s favor that there is genuine
issue/claim for Jury Trial, based upon the overwhelming evidence in Petitioner(s)’s
medical records, surgery transcripts, and literally with the Respondent(s) Ethicon very
own Hernia Mesh U.S. Patent(and 501k FDA Premarket Products) filed with the Federal
Government identifying the Respondent Ethicon’s defective and dangerous Polypropylene
(ie, COMMON PLASTIC) non-dissolving hernia mesh and suture products. (See DC ECF
#136). See Petitioner’s Appendix L
Further,

These

Petitioner(s)s

timely

filed

pleadings/objections

that

the

Respondent(s)s ETHICON Corporate Attorneys was intentionally wasting precious
judicial resources by seeking delays, excuses for over three years, and circled like
vultures for the remaining time in the Petitioner(s)’s life until he died by the
Respoondent ETHICON Corporate Attorneys filing the same inapplicable redundant
defenses(ie, failure to state a claim, ect) over and over again. When ALL of the
Respondent(s) ETHICON Corporate Attorneys knew fully well that ETHICON
negligently

continued

to

manufacture

defective,

and

unreasonably

dangerous

Polypropylene(ie, COMMON PLASTIC) hernia surgical mesh; and that Respondent(s)
ETHICON and their Corporate Attorneys did not provide doctors, surgeons, patients with
reasonably sufficient technical information about the risks of its product which caused
Petitioner(s) injury, and the unambiguous literal fact. That all of the Respondent(s)
8

ETHICON Polypropylene(ie, COMMON PLASTIC) non-disolving surgical hernia mesh
and sutures products(ie, whether its cut in the shape of a square, circle, triangle,
packaged/repackaged, vaginal mesh, and that they name/rename/repackage it whatever
they want on advise of the Respondent(s)s ETHICON Corporate Attorneys to unlawfully
financially profit by charging/defending) is still Polypropylene; and that Polypropylene(ie,
COMMON PLASTIC) was never intended to be implanted into the human body. See
Sanchez v. Boston Scientific Corp.. 38 F. Supp. 3d 727 ■ Dist. Court, SD West Virginia
2014; Hendricks v. Boston Scientific Corp.. 61 F. Supp. 3d 638 - Dist. Court, SD West
Virginia 2014. Judge Goodwin knows all of thisREASONS FOR GRANTING THE PETITION
DID THE U.S. DISTRICT COURT AND U.S. FOURTH CIRCUIT COURT OF APPEALS
JUSTICES ABUSE THEIR DISCRETION, CREATE MANIFEST INJUSTICE,
SUBSTANTIALLY ERR, PREJUDICE, AND HAVE A LEGAL DUTY, OBLIGATION,
AND SWORN JUDICIAL OATH TO MAKE A WRITTEN DECISION UNDER RULE 60
ON WHETHER THE RESPONDENT ETHICON CORPORATE ATTORNEYS
INTENTIONALLY AND IN BAD FAITH KNOWINGLY COMMITTED FRAUD UPON
THE COURT TO OBTAIN A WRONGFUL JUDGMENT FOR FINANCIAL GAIN IN
THE U.S. DISTRICT COURT AND THE U.S. FOURTH CIRCUIT COURT OF APPEALS
IN ORDER, TO PROTECT RESPONDENT®) FOR CONTINUING TO UNLAWFULLY
MANUFACTURING POLYPROPYLENE(ie, COMMON PLASTIC) MESH PRODUCTS
THAT WAS NEVER INTENDED TO BE IMPLANTED IN THE HUMAN BODY IN
VIOLATION OF FEDERAL LAW?
On the case at bar, These Petitioner(s) filed numerous pleadings, motions, and
objections on all of the Respondent(s)-Apellees ETHICON Corporate Attorneys redundant
pleadings and/or motions barred under either the Issue and/or Claim Preclusions of the
Res Judicata Doctrine that is clearly established by the U.S. Supreme Court in BROWN
V FELSON. 442 U.S. 127(1979); ALLEN V MCCURRY. 449 U.S. 90, 94(1980). Atypically
alleging that these Plaintiff-Appellees failed to state a claim! failed to disclose,' failed to
9

describe the Respondent(s)s product, etc! and fraudulently/falsely alleging that all of the
Respondent(s) ETHICON Polypropylene(ie, COMMON PLASTIC) Hernia Mesh and
Suture products is safe to be implanted in the human body, contrary to Federal Law and
Medial Experts.
FEDERAL CIVIL RULE 60. "RELIEF FROM A JUDGMENT OR ORDER"
(a) CORRECTIONS BASED ON CLERICAL MISTAKES; OVERSIGHTS AND OMISSIONS. The court may
correct a clerical mistake or a mistake arising from oversight or omission whenever one is found in a
judgment, order, or other part of the record. The court may do so on motion or on its own, with or
without notice. But after an appeal has been docketed in the appellate court and while it is pending,
such a mistake may be corrected only with the appellate court's leave.
(b) GROUNDS FOR RELIEF FROM A FINAL JUDGMENT, ORDER, OR PROCEEDING. On motion and just
terms, the court may relieve a party or its legal representative from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been discovered in time
to move for a new trial under Rule 59(b);
(3) fraudfwhether previously called intrinsic or extrinsic), misrepresentation, or misconduct by an
opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an earlier judgment that
has been reversed or vacated; or applying it prospectively is no longer equitable; or
(6) any other reason that justifies relief.
(c) TIMING AND EFFECT OF THE MOTION.
(1) Timing. A motion under Rule 60(b) must be made within a reasonable time—and for reasons (1),
(2), and (3) no more than a year after the entry of the judgment or order or the date of the
proceeding.
(2) Effect on Finality. The motion does not affect the judgment's finality or suspend its operation.
(d) OTHER POWERS TO GRANT RELIEF. This rule does not limit a court's power to:
(1) entertain an independent action to relieve a party from a judgment, order, or proceeding;
(2) grant relief under 28 U.S.C. § 1655 to a Respondent(s) who was not personally notified of the
action; or
(3) set aside a judgment for fraud on the court.
(e) BILLS AND WRITS ABOLISHED. The following are abolished: bills of review, bills in the nature of bills
of review, and writs of coram nobis, coram vobis, and audita querela
(Quoted in full verbatium, emphasis added).
This Petitioner(s) claims that in their timely filed Motion For Relief Judgment, that: (A) it is not
being presented for any improper purpose, such as to harass, cause unnecessary delay, or needlessly

10

increase the cost of litigation; (B) the claims, defenses, and other legal contentions are warranted by
existing law or by a non-frivolous argument for extending, modifying, or reversing existing law or for
establishing new law; (C) the factual contentions have evidentiary support or, if specifically so
identified, will likely have evidentiary support after a reasonable opportunity for further investigation
or discovery; and/or (D) the denials of factual contentions are warranted on the evidence or, if
specifically so identified, are reasonably based on belief or a lack of information. See FRCiv.P Rule
11(b) et seq.
This Petitioner(s) claims that on the case at bar, That "Extraordinary Circumstances" existed for
the U.S. District Court Judge to correct the numerous clerical mistakes, judicial mistakes, and
substantial legal errors arising from oversight or omission in the Final Judgment Order, or other part of
the record, including inadvertence, manifest/literal Fraud, misconduct, and misrepresentation of facts
intentionally committed by Respondent(s) Corporate Attorneys in Bad Faith. See Ackermann v. United
States. 340 U.S. 193, 199-202, 71 S.Ct. 209, 212-14, 95 L.Ed. 207 (1950); Ford Motor Co. v. Mustangs
Unlimited. Inc.. 487 F.3d 465, 468(6th Cir. 2007). Relief is limited to "unusual and extreme situations
where principles of equity mandate relief." Pile v. Henry & Wright Corp.. 910 F.2d 357, 365 (6th Cir.
1990). "The decision to grant Rule 60(b)(6) relief is a case-by-case inquiry that requires the trial court
to intensively balance numerous factors, including the competing policies of the finality of judgments
and the incessant command of the court's conscience that justice be done in light of all the facts."
Thompson v. Bell. 580 F.3d 423, 442 (6th Cir. 2009) (quoting Blue Diamond Coal Co. v. Trustees of
UMWA Combined Benefits Fund. 249 F.3d 519, 529 (6th Cir. 2001)).
This Petitioner(s) claims that that it would be a mistake, inadvertence, or excusable neglect by
failing/refusing to follow clearly established Federal law, as determined by the Supreme Court of the

11

United States; or that this court's prior order resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State Court proceeding. See FRCP
60(b)(1) et seq; Fed. R. Civ. P. 60(b)(4); United Student Aid Funds v. Espinosa. 559 U.S. 260, 271 (2010).
Also see Kelly v. Bergh. No. 07-13259, 2009 WL 5217677, at *2 (E.D. Mich. Dec. 28, 2009) (citing Bd. of
Trs., Sheet Metal Workers' Nat'l Pension Fund v. Elite Erectors. Inc.. 212 F.3d 1031, 1034 (7th Cir.
2000)).
Further, A Fciv.P Rule 60(b)(6) Motion For Relief From Judgment must be based on
circumstances not covered by one of the first five clauses, and "strictly legal error" is considered a
"mistake" under Rule 60(b)(1). Hopper v. Euclid Manor Nursing Home. Inc.. 867 F.2d 291, 294 (6th Cir.
1989); Stokes v. Williams. 475 F.3d 732, 735 (6th Cir. 2007)(citing Olle v. Henry & Wright Corp., 910
F.2d 357, 365 (6th Cir. 1990)), and Federal Appellate Courts have long "recognized a claim of legal
error as subsumed in the category of mistake under Rule 60(b)(1)." Pierce v. United Mine Workers of
America Welfare and Retirement Fund. 770 F.2d 449, 451 (6th Cir. 1985) (citing Barrier v. Beaver. 712
F.2d 231, 234 (6th Cir. 1983)).
On the case at bar, This Petitioner(s) demanded that the Final Judgment Order be corrected for
imminent Federal Appellate Court Review under Abuse of Discretion for failure correct earlier
mistakes. Since "a district court by definition abuses its discretion when it makes an error of law."
Cooter & Gell v. Hartmarx Corp.. 496 U.S. 384, 405 (1990); Koon v. United States. 518 U.S. 81, 100
(1996); Yeschick v. Mineta. 675 F.3d 622, 628 (6th Cir. 2012) (citing Jones v. III. Cent. R.R. Co.. 617 F.3d
843, 850 (6th Cir. 2010)). "A motion made under Rule 60(b)(6) is addressed to the trial court's
discretion which is 'especially broad' given the underlying equitable principles involved." Hopper v.
Euclid Manor Nursing Home. Inc.. 867 F.2d 291, 294 (6th Cir. 1989). Since a "Substantive Error" has

12

occurred, and that this Federal Court's is decision is Void, based upon any/all of the Substantive Errors
of Law and Erroneous Decisions on Federal Law as determined by the US Supreme Court superseding
the Federal Rule of Law inadvertently by mistake as quoted in this Flonorable US District Court Judge's
Final Judgment Order as follows:
On the case at bar, This Petitioner(s) claimed that the U.S. District Court Judge abused his
discretion, created manifest injustice, substantially erred, prejudiced, and blatantly violated these
Petitioner(s)(s) clearly established Federal Constitutional Rights to Equal Protection Due Process of
Law, and Access to the Courts in his quest to act a Judicial Advocate to protect Respondent(s)
ETHICON Corporate Attorneys, and continue to allowing the Respondent(s) ETHICON et al to continue
to manufacture their well-known defective polypropylene hernia and suture products, instead of
taking it off the market like other defective medical devises after decades of Federal Litigation and
Appeals. By wrongfully/erroneously granting summary judgment to the Respondent(s) ETHICON
Corporate Attorneys. After the Respondent(s) ETHICON Corporate Attorneys intentionallly and in bad
faith knowingly mislead the U.S. District Court Judge by committing FRAUD UPON THE COURT, based
upon the Respondent(s) ETHICON Corporate Attorneys falsely advising this Federal Judge that:
(Al ERRONEOUS DECISION- SUBJECT MATTER JURISDICTION.
These Petitioner(s)(s) filed this Federal Complaint against the Respondent(s) on MAY 5.2017.
with a Sworn Affidavit that claimed 2007 surgery took place in Virginia but did not start having
complications from Respondent(s) ETHICON polypropylene hernia mesh and suture product until
2016; and then these Petitioner(s)(s) had to file a formal written Federal Judicial Complaint with Chief
Justice against this Honorable U.S. District Court Judge JOSEPH GOODWIN to even process, screen,

13

and prosecute this Civil Action under the inapplicable Federal PRISONER STATUTE, 28 USC 1915 et seq.
(ECF #2, and #6). See Petitioner's Appendixs H through J.
In Phillips v. Seiter. 173 F. 3d 609(7th Cir. 1999), the court held: "When a court lacks
jurisdiction, the ordinary course is, indeed, to dismiss, just as these two district courts did. But 28
U.S.C. § 1631, enacted in 1982, provides that a district court that finds it lacks jurisdiction over a case
"shall, if it is in the interests of justice, transfer such action ... to any other court in which the action
. .. could have been brought at the time it was filed." Since the term "interests of justice" is vague,
district courts have a good deal of discretion in deciding whether to transfer a case. Gunn v. United
States Dept, of Agriculture, 118 F.3d 1233, 1240 (8th Cir.1997); Afifi v. United States Dept. of Interior.
924 F.2d 61, 64 (4th Cir.1991); Miller v. Hambrick. 905 F.2d 259, 262 (9th Cir.1990). The court can
transfer the case even if not asked to do so by either party. Rodriguez-Roman v. INS. 98 F.3d 416, 423
n. 9 (9th Cir. 1996); General Atomics v. NRC. 75 F.3d 536, 539-40 (9th 0^.1996),
In fact, to avoid the pitfalls for unwary Petitioner(s)s created by subject-matter courts,
Congress enacted a liberal transfer statute (28 U.S.C. § 1631) when it created the Federal Circuit.
The uncertainty in some statutes regarding which court has review authority creates an
unnecessary risk that a litigant may find himself without a remedy because of a lawyer's
error or a technicality of procedure.
At present, the litigant's main protective device, absent an adequate transfer statute, is the
wasteful and costly one of filing in two or more courts at the same time. This puts
increased burdens on the courts as well as the parties.
Therefore, the language of [28 U.S.C. § 1631] is broadly drafted to permit transfer between
any two federal courts.
Senate Report No. 97-275,1982 U.S.Code Cong. & Admin.News 11, 21.
In short, Congress discouraged wasteful parallel appeals by creating a safety net for litigants
who might seek review in a single wrong forum. The transfer statute has been applied to reviews of

14

MSPB decisions. See Williams 715 F.2d at 1491(transferring mixed case to district court); Ha vs v.
Postmaster General. 868 F.2d 328, 331 (9th Cir.l989)(remanding to determine whether transfer would
serve the interests of justice).
Then after this case was filed these Petitioner(s)s filed a formal written "Motion To Demand
The U.S. Magistrate DWANE TINSLEY Be Removed From Case For Good Cause and Prejudice". Because,
No Consent was ever give by either party for this Magistrate Judge to proceed over this case as
required by clearly established Federal Civil Court Rule 53(a)(2), 28 USC 636(c), and 28 USC 455.
In Roell v. Withrow. 538 US 580(2003), The U.S. Supreme Court Justices, and not some Inferior
Federal Court Judge clearly established that:
"The Federal Magistrate Act of 1979 (Federal Magistrate Act or Act) expanded the power of
magistrate judges by authorizing them to conduct "any or all proceedings in a jury or nonjury civil
matter and order the entry of judgment in the case," as long as they are "specially designated ... by
the district court" and are acting "Moon the consent of the parties." 28 U. S. C. § 636(c)(1)."
Further, "28 USC 636(c)(2) establishes the procedures for a § 636(c)(1) referral:
"If a magistrate judge is designated to exercise civil jurisdiction under [§ 636(c)(1)], the clerk of court
shall, at the time the action is filed, notify the parties of the availability of a magistrate judge to
exercise such jurisdiction." § 636(c)(2). Within the time required by local rule, "[tjhe decision of the
parties shall be communicated to the clerk of court." Ibid. Federal Rule of Civil Procedure 73(b)
specifies that the parties' election of a magistrate judge shall be memorialized in "a joint form of
consent or separate forms of consent setting forth such election," see Fed. Rules Civ. Proc. Form 34,
and that neither the magistrate nor the district judge "shall... be informed of a party's response to the
clerk's notification, unless all parties have consented to the referral of the matter to a magistrate
judge." The procedure created by 28 U. S. C. § 636(c)(2) and Rule 73(b) thus envisions advance,
written consent communicated to the clerk, the point being to preserve the confidentiality of a party's
choice, in the interest of protecting an objecting party against any possible prejudice at the magistrate
judge's hands later on. See also § 636(c)(2) ("Rules of court for the reference of civil matters to
magistrate judges shall include procedures to protect the voluntariness of the parties' consent").
The U.S. Supreme Court also clearly established and held that, "We think the better rule is to
accept implied consent where, as here, the litigant or counsel was made aware of the need for

15

consent and the right to refuse it. and still voluntarily appeared to try the case before the Magistrate
Judge. Inferring consent in these circumstances thus checks the risk of gamesmanship by depriving
parties of the luxury of waiting for the outcome before denying the magistrate judge's authority.
Judicial efficiency is served; the Article III right is substantially honored. See Commodity Futures
Trading Comm'n v. Schor. 478 U. S. 833, 849-850(1986).
Then U.S. District Court Magistrate DWANE TINSLEY conspired with the Respondent(s)
ETHICON Corporate Attorneys to actually TRANSFER Jurisdiction of these Petitioner(s) Civil Action
THREE TIMES into numerous Federal Multi-Jurisidiction Courts In Washington DC, Georgia, and the
State of New Mexico since this case has been pending.
This Petitioner(s) then timely objections to this Petitioner(s)(s) Civil Action being Transferred by
Respondent(s) ETHICON Corporate Attorneys and U.S. District Court Magistrate DWANE TINSLEY into
said Federal Multi-Jurisidiction Courts In Washington DC, Georgia, and New Mexico. Because neither
the Petitioners nor the Respondent(s) reside there; and now this Honorable U.S. District Court
Judge wants to decide that this case should have been transferred to a U.S. District Court in the State
of Virginia where the 2007 hernia surgery took place. When the U.S. District Trial Court Judge knew
very well THREE YEARS AGO when he screened this case. That this Civil Action could have been
transferred by this Honorable U.S. District Court Judge to a Virginia U.S. District Court years ago. Then
what would have been that incompetent Federal Court Judges in Virginia excuse for Justice would
have been? That this case should be transferred back to West Virginia.
(B) ERRONEOUS DECISION- STATUTE OF LIMITATIONS
This Petitioner(s) claims that the U.S. District Court Judge assertion that the Statute of
Limitations began to run as soon as the Petitioner(s) had hernia surgery in 2007 is erroneous,

16

ludicrous, laughable, and inapplicable. Because, Under Federal Law a Litigant cannot file a civil action
before they suffer a actual personal injury, and because the Respondent(s) Corporate Attorneys
intentionally and in bad faith fraudulently asserted throughout its pleadings that their Respondent(s)
VICRYL polypropylene hernia mesh and sutures products was never implanted in the Petitioner(s)
body 2007 surgery as listed/identifed in Petitioner(s) Medical Records as the Respondent(s) ETHICON
polypropylene hernia mesh and sutures products(ie, PLASTIC that was never intended to be in the
human body like lead, asbestos, etc). See Appendixs I, J, and and L.
In Locke v. Johns-Manville CORPORATION. 275 SE 2d 900, Va: Supreme Court(1981), The
Virginia Supreme Coourt Justices clearly established that: " The Virginia statute of limitations is
governed by Code §§ 8.01-243(A) and -230. Section 8.01-243(A) provides, in pertinent part, that
"every action for personal injuries, whatever the theory of recovery ... shall be brought within two
years next after the cause of action shall have accrued."
The relevant part of § 8.01-230 provides that "[i]n every action for which a limitation period is
prescribed, the cause of action shall be deemed to accrue and the prescribed limitation period shall
begin to run from the date the injury is sustained in the case of injury to the person....".
There is no right of action until there is a cause of action. Caudill v. Wise Rambler. 210 Va. 11,
13, 168 S.E.2d 257, 259 (1969). The essential elements of a cause of action, whether based on a
tortious act or breach of contract, are (1) a legal obligation of a Respondent(s) to the Petitioner(s), (2)
a violation or breach of that duty or right, and (3) harm or damage to the Petitioner(s) as a proximate
consequence of the violation or breach. Id. See Sides v. Richard Machine Works. Inc.. 406 F.2d 445,
446 (4th Cir. 1969). A cause of action does not evolve unless all of these factors are present.
Specifically, without injury or damage to the Petitioner(s), no right of action accrues; stated differently,

17

a Petitioner(s)'s right of action for damages for bodily injuries does not accrue until he is hurt. Id.;
Barnes v. Sears. Roebuck & Co.. 406 F.2d 859, 861 (4th Cir. 1969).
The provisions of the statute of limitations under discussion, enacted in 1977 as a part of the
wholesale revision of former Title 8 of the Code of Virginia, are not only consistent with the foregoing
case law but are also compatible with the nature and purpose of such a general statute of limitations.
They are intended to require prompt assertion of an accrued right of action, not to bar such a right
before it has accrued. Caudill. 210 Va. at 13,168 S.E.2d at 259.
Thus, according to the medical evidence before us, and keeping in mind that the burden to
prove facts necessary to establish an application of the statute of limitations is upon a Respondent(s),
Louisville and Nashville Railroad v. Saltzer. 151 Va. 165, 168, 144 S.E. 456, 457(1928), we are
confronted in this case with a medical condition that does not arise at a specific point of time, as does
a broken bone; mesothelioma results over a period of time, the beginning of the period being
unknown. In other words, the cancer—the hurt—the harm— the injury—did not spring up at infliction
of the wrongful act, that is, when the dust was inhaled no later than 1972. Rather, the— tumor—the
hurt—the harm—the injury— manifestly occurred before June of 1978 when the mesothelioma was
diagnosed; the time it began to form before that date not being shown by the evidence. Simply put,
legally and medically there was no injury upon inhalation of Respondent(s)1 asbestos fibers.
(C) ERRONEOUS DECISION- PETITIOIMERfs) SHOULD HAVE JOINED CLASS ACTION
This Federal Judge erroneous ruling that Petitioner(s) should have joined a hernia mesh class
within two years of hernia mesh surgery even though there was nothing wrong with him, and even
though Medical Experts were treating him for medical problems like thousands of Fellow American are
being misdiagnosed at present, and treated for at billions of dollars at taxpayers expense annually that

18

they didnt know medical problems was being caused by the Respondent(s) ETHICON defective
polypropylene hernia mesh and sutures products is ludicrous.
Further, These Petitioner(s)s NEVER soliticited any Corporate Law Firm Attorneys to be a
member of any hernia mesh class action. Instead, These Petitioner(s)s were soliticited by numerous
Corporate Law Firms unlawfully accessing hospital and insurance records in violation of HIPA Law, and
because these Petitioner(s)s are not incompetent to handle their own affairs to need to be
represented by any attorney from dozens of Corporate Law Firms milking the court system and clients.
(D) ERRONEOUS DECISION- PETITIONERS) SWORN AFFIDAVIT IS A SHAM
This Petitioner(s) Sworn Affidavit is a "Sham" by falsely alleging to Federal Judge that this
Petitioner(s) did not say the Petitioner(s) had medical problems/complications in 2016 until she did
her deposition, and filed responses/objections to Respondent(s) Motions To Dismiss, Summary
Judgment, and subjective Deposition.
A simple review of the FIRST pleadings filed by Petitioner(s) William Perry Newhouse that was
his supporting sworn affidavit to his Complaint For Civil Action and Response Pleadings that said that
he did not start having complications from Respondent's ETHICON polypropylene hernia and
sutures until 2016; and that No Medical Experts initially suspected that the Respondent(s)'s ETHICON
polypropylene hernia and sutures products(that was suppose to be safe) was the real cause of of this
Petitioner(s)(s) medical complications until 2016. See Petitioner's Appendixs H through J.
STANDARD OF REVIEW FRAUD UPON THE COURT NEVER ADDRESSED
Both the U.S. District Court Judge and U.S. Fourth Circuit Court of Appeals Justices refused to
uphold any form of Justice by continuing to violate and disregard clearly established biding case law

19

decisions by U.S. Supreme Court Justice quoted by this Petitioner(s). That the U.S. Supreme Court
held/declared in Bradv v. Maryland - 373 U.S. 83(1963), that any:
"'Decency, security, and liberty alike demand that government officials shall be subjected to the same
rules of conduct that are commands to the citizen. In a government of laws, existence of the
government will be imperilled if it fails to observe the law scrupulously. Our government is the potent,
the omnipresent teacher. For good or for ill, it teaches the whole people by its example. Crime is
contagious. If the government becomes a lawbreaker, it breeds contempt for law; it invites every man
to become a law unto himself; it invites anarchy. To declare that in the administration of the criminal
law the end justifies the means * * * would bring terrible retribution. Against that pernicious doctrine
this court should resolutely set its face.' Olmstead v. United States. 277 U.S. 438, 485, 48 S.Ct. 564,
575, 72 L.Ed. 944 (1928) (dissenting opinion).
In MILLIKEN V MEYER. 311 U.S. 457, 61 Set 339, 85 LEd2d 278(1940), The U.S. Supreme Court
clearly established that, "A void judgment which lacks jurisdiction over the parties or the subject
matter, or lacks inherent power to enter the particular judgment, or an order procured bv Fraud, can
be attacked at any time, in any court, either directly or collaterally, provided that the party is
properly served before the court". See DAVIDSON CHEVROLET INC. V CITY AND COUNTY OF DENVER.
330 P.2d 1116(1958); STEINFELD V HODDICK 513 U.S. 809(1994).
The U.S. Supreme Court in Tyler v. Maewire. 84 U.S. 253 (1872), has long clearly established
and held, that: "Repeated decisions of this court have established the rule that a final judgment or
decree of this court is conclusive upon the parties, and that it cannot be reexamined at a subsequent
term, except in cases of fraud, as there is no act of Congress which confers any such authority."
Because, No fraud is more odious than an attempt to subvert the administration of justice. The court
is unanimous in condemning the transaction disclosed by this record. Our problem is how best the
wrong should be righted and the wrongdoers pursued". As Respondent(s) and Attorney Brandon Buck
will be-

20

In Hazel-Atlas Glass Co. v Hartford-Empire Co.. 322 U.S. 238 (1944), The U.S. Supreme Court on
deciding a case of Fraud upon the Court committed by attorneys held, that: "From the beginning.
there has existed along side the term rule a rule of eauitv to the effect that, under certain
circumstances, one of which is after-discovered fraud, relief will be granted against judgments
regardless of the term of their entry" See Marine Insurance Company of Alexandria v. Hodgson. 11
U.S. 332 (1813); Marshall v. Holmes. 141 U.S. 589 (1891).
On NOVEMBER 20.2017. These Petitioner(s) have filed Petitioners' Motion For Objection
and To Strike Respondent(s) Answers and Defenses To Complaint, Sworn Affidavits, Exhibits(ECF #17
with the attached medical records with "stickers" described in deposition that Resoondent(s)
Corporate Attorney falsely misleading to the Federal Judge they were not provided bv this Petitioner^
to warrant sanctioning Respondent(s) Corporate Attorneys):

Petitioner(s) Demand For Immediate

Hospital Bed Deposition and Physical Examination, per Fed.Civ. Court Rules 27, 28, 29, 30, 31, 32, 33,
and 35), including Petitioner(s) Motion For Declaratory Judgment on any case and controversy(ECF
#65), and this Petitioner(s) Motion For Objection to Magistrate's Report and Recommendation Ad Hoc
Order denying this Petitioner(s)s Motion For Declaratory Judgment on the actual case and controversy
to expedite the prosecution of this case for Jury Trial. Whether this Petitioner(s) Civil Action Claims
should be scheduled for Jury Trial by her Peers over the Respondent(s) well-known defective
polypropylene hernia mesh and suture products for unlawful financial corporate gain, attorneys fees,
tax write offs, and not be taken immediately off market like lead/food products. See ECF #2, #17, and
#136. See Petitioner's Appendixs H through J.
Further, This Petitioner(s) even filed written Objections bv Right demanding a Hearing
regarding discovery/deposition, FRCiv.P Rule 30(d); and the Petitioner(s) signed TWO medical record

21

release forms while Petitioner^) William Perry Newhouse was still alive for the Respondent(s) Proxy
Corporate Attorneys to get any/all of the Petitioner(s) Medical Records from both the CHARLESTON
MEDICAL CENTER and UNIVERSITY OF VIRGINIA HEALTH SYSTEM. That treated Petitioner(s) Willliam P.
Newhouse III for the Respondent(s) defective polypropylene products. So the Respondent(s) ETHICON
Corporate Attorneys cannot assert they never got this or that medical record, in order, for the
Respondent(s) Corporate Attorneys to quit sandbagging and playing games for demanded Jury Trial
they know they will loose. Further, The Respondent(s) prior Corporate Attorney GORDON MOWEN
even sent emails to this Petitioner(s) that before he exits the law firm that he will get the medical
records identifying the Respondent(s) VICRYL product used throughout the medical records, and the
ask for a 90-Day extension to do depositions. See ECF #136. See Petitioner's Appendixs K.
On JULY 24.2019. This Honorable Federal Court Judge held a hearing(ECF #106), and ordered
the Respondent(s) ETHICON Senior Corporate Attorney to obtain Petitioner(s)s Medical Records, and
to provide this Petitioner(s) with a copy of any/all Discovery(eg, Petitioner(s) Medical Records) the
Respondent(s) Corporate Attorneys get/obtain. As of to date, The Respondent(s) ETHICON Newly
Assigned Attorney NATALIE B. ATKINSON and the rest of Respondent(s) Corporate Attorneys have
failed to provide this Petitioner(s) with any Discovery demanded, and even had peon secretaries
intentionally and in bad faith answer this Petitioner(s) submitted discovery of lnterrogatories(ECF #56).
That knows absolutely nothing about the Respondent(s) defective polypropylene products, what evil
they work for, or much less no knowledge where they keep the coffee filters at Ethicon Corporate
Headquarters.
On JANUARY 13,2020, The Respondent(s) Newly Assigned Attorney NATALIE B. ATKINSON
intentionally and in bad faith knowingly committed fraud upon the court by filing a panic-striken and

22

fraudulent "Reply To Petitioner(s) Motion For Objection and Strike Respondent(s) Motion For
Summary Judgment and Demand For Sanctions(ECF #133); Respondent(s) Motion To Strike Affidavit of
Petitioner(s) Delva Newhouse(ECF #134) Respondent(s) Motion To Renew Motion To Dismiss For
Failure To Comply with Discovery Obligations and this Court's Order(ECF #135)" falsely alleging and
misleading this Honorable Federal Court that:
(A) This Petitioner(s) has not answered Interrogatories or Questions at Deposition
directed to the Petitioner(s)s that was literally Objected to in writing by Right by this
Petitioner(s);
(B) That the Petitioner(s)s have not provided the Respondent(s) Corporate Attorneys
with Discovery, Admissions, ect, and/or seeks discovery that will be used for
impeachment purposes at Jury Trial, pursuant to clearly established FRCiv.P Rule 26(a)
(l)(l-ll), and FRCiv.P Rule 26(a)(3)(A) et seq;
(C) That the Petitioner(s) Delva Newhouse Sworn Affidavit is a "sham", and thus
Petitioner(s) demands to be prosecuted to get a Jury Trial or the Respondent(s)
Corporate Attorneys will be prosecuted for knowingly making/filing misleading and
false statements in their dispositive pleadings to unlawfully obtain a erroneous
judgment);
(D) Demanding that this Petitioner(s) answer inadmissible heresy Interrogatories and
answer subjective questions at contested Depositions about Doctor Experts Opinions, in
futile attempt, to unlawfully summarily dismiss this very meritorious Civil Action
Complaint by Respondent(s) Newly Assigned Corp Attorney filing a frivolous Motion To
Dismiss for allegedly failing to answer Interrogatories, Deposition, and disclose
Discovery.
(E) and intentionally and in bad faith to deceive/mislead this Federal Court by
knowingly falsely asserting in their summary judgment that Respondent(s) ETHICON
polypropylene(ie, plastic) 3-0 Vicryl Hernia Mesh and 3-0 Vicryl Sutures was not
implanted into the deceased Petitioner(s) human body and its not their defective
product, and that there exists absolutely no Respondent(s) ETHICON U.S. Patents or EPA
501k Premarket Applications unambiguously lists polypropylene in their hernia mesh or
suture products asserting that its completely safe to the EPA. See ECF #136
The U.S. Supreme Court Justices clearly established that U.S. District Court Judges must look
beyond the pleadings and assess the proof to determine whether there is a genuine need for trial.
Matsushita Elec. Indus. Co. v. Zenith Radio Coro.. 475 U.S. 574, 587 (1986). If Respondent(s) carries its
burden of showing there is an absence of evidence to support a claim, The Plaintiff must

23

demonstrate by affidavit, depositions, answers to interrogatories, and admissions of file, that there
is a genuine issue of material fact for trial. Celotex Coro, v. Catrett, 477 U.S. 317, 324-25 (1986).
It should also be noted, That all of the Respondent(s) Corporate Attorneys have also failed to
depose any doctors, experts, or any Petitioner(s) defense witnesses listed for scheduled Jury Trial to
seek further unnecessary delays to do this/that. After this Petitioner(s) stated a claim upon which
relief must be granted that any reasonable juror would rule in Petitioner(s) favor that there is genuine
issue/claim for Jury Trial, based upon the overwhelming evidence in Petitioner(s) medical records,
surgery transcripts, and the Respondent(s) Ethicon very own Hernia Mesh U.S. Patent(and 501k FDA
Premarket Products) filed with the Federal Government identifying the Respondent(s) Ethicon's
defective and dangerous polypropylene hernia mesh and non-dissolving suture products. See ECF
#136. See Petitioner's Appendixs L
So this Petitioner(s) demanded that the Final Order be corrected for Federal Appellate Court
Review under the Abuse of Discretion Standard for failure to correct earlier mistakes. Since "a district
court by definition abuses its discretion when it makes an error of law." Cooter & Gell v. Hartmarx
Coro.. 496 U.S. 384, 405 (1990); Koon v. United States. 518 U.S. 81, 100 (1996); Yeschick v. Mineta. 675
F.3d 622, 628 (6th Cir. 2012) (citing Jones v. III. Cent. R.R. Co.. 617 F.3d 9843, 850 (6th Cir. 2010)). "A
motion made under Rule 60(b)(6) is addressed to the Trial Court's discretion which is 'especially broad'
given the underlying equitable principles involved." Hooper v. Euclid Manor Nursing Home. Inc.. 867
F.2d 291, 294 (6th Cir. 1989).

24

DID THE U.S. DISTRICT COURT AND U.S. FOURTH CIRCUIT COURT OF APPEALS
JUSTICES ABUSE THEIR DISCRETION, CREATE MANIFEST INJUSTICE,
SUBSTANTIALLY ERR, PREJUDICE, AND HAVE A LEGAL DUTY OR OBLIGATION,
AND SWORN JUDICIAL OATH TO PROTECT THE GENERAL PUBLIC BY ISSUING
A ORDER TO RESPONDENTS) ETHICON TO CEASE AND DESIST FROM
CONTINUING TO UNLAWFULLY MANUFACTURING/SELLING NON-DISSOLVING
DANGEROUS AND DEEECTTVE POLYPROPYLENE (COMMON PLASTIC) MESH
AND SUTURE PRODUCTS TO GENERAL PUBLIC THAT WAS NEVER INTENDED
TO BE IMPLANTED IN THE HUMAN BODY IN VIOLATION OF FEDERAL LAW?
Further, This Petitioner claims that the Respondent(s) ETHICON has never been
ordered by any Federal Court or advised by the Respondent(s) ETHICON Corporate
Attorneys to cease, desist, or be criminally prosecuted for knowingly manufacturing
POLYPROPYLENE(ie, Common Plastic) hernia and vaginal mesh, and suture products
that DOES NOT dissolve, and was never intend to be implanted in the human body for
financial gain pursuant to pursuant to 21 U.S.C. 351(f)(1)(B), in violation of the Federal
Food, Drug, and Commerce Act(FDCA), 21 U.S.C. 331(a) and 333(a)(2) for their criminal
wrongdoing for continuing to knowingly make, sell, and peddle the defective and
unreasonably dangerous non-dissolving POLYPROPYLENE(ie, Common Plastic) mesh
and suture products as other Corporations/CEOS have been criminally charged as
Corporations/CEOS for their wrongdoing and/or manufacturing defective products in the
clearly established cases entitled United States v. Curtiss-Wright Export Corp.. 299 US
304(1936); United States v. Dotterweich. 320 US 277(1943); Pennekamp v. Florida. 328
US 331(1946); Dennis v. United States. 341 US 494(1951); United States v. A & P
Trucking Co.. 358 US 121(1958); United States v. National Dairy Products Corp.. 372 US
29 (1963); United States v. General Motors Corp..384 U.S. 127 (1966); United States v.
International Minerals & Chemical Corp.. 402 US 558(1971); United States v. Park. 421
US 658(1975); Upjohn Co. v. United States. 449 US 383(1981); United States v. Halper.
25

490 US 435(1989). Also see US v. Nippon Paper Industries Co.. Ltd.. 109 F. 3d l(lst
Circuit 1997);

United States v. FMC Corp.. 572 F. 2d 902(2nd Circuit, 1978); United

States v. Koppers Co.. Inc.. 652 F. 2d 290(2nd Circuit 1981); US v. Twentieth Century
Fox Film Corp.. 882 F. 2d 656(2nd Circuit 1989); United States v. Johnson & Towers.
Inc.. 741 F. 2d 662(3rd Circuit 1984); United States v. Basic Const. Co.. 711 F. 2d 570(4th
Circuit, 1983); US v. Automated Medical Laboratories. Inc.. 770 F. 2d 399(4th Circuit
1985); United States v. General Motors Corp.. Case i:i5-cv-073429(S.D. N.Y.); U.S. v.
Tanaka et al.. Court Docket No.: 16-cr-20810-GCS-EAS (E.D. Michigan).
This Petitioner(s) claims that it is a literal fact that ALL Non-Class Action
Lawsuits that were filed by Individual Plaintiff Complainants against the Corporate
Respondent ETHICON for knowingly continuing to manufacture Polypropylene(ie,
COMMON PLASTIC) Hernia Mesh, Vaginal Mesh, and Suture Products were ALL
systematically assigned to U.S. District Court Judge JOSEPH R. GOODWIN For The
Southern District of West Virginia to be dismissed after years of litigation that refused to
join Class Action Lawsuits as this Petitioner. That were filed by Corporate Law Firms
Nationwide literally arguing the same/identical claims, including any/all cases wrongfully
transferred from U.S. Multi-Court Jurisdiction to the U.S. District Court For The
Southern District of West Virginia for Judge JOSEPH R. GOODWIN to systematically
dismiss, in order, to product Corporate Interests and Fellow Members of the WV Bar
Assocation(ie, ETHICON Corporate Attorneys). See Huskev v. Ethicon. Inc., 29 F. Supp.
3d 69l(SD West Virginia 2014)(Judge Joseph R. Goodwin): Huskev v. Ethicon. Inc., 29 F.
Supp. 3d 736(SD West Virginia 2014)(Judge Joseph R. Goodwin); Huskev v. Ethicon. Inc.,
848 F. 3d 15l(4th Cir. 2017)(Judge Joseph R. Goodwin); Mullins v. Ethicon. Inc., 147 F.
26

Supp. 3d 478(SD West Virginia 2015(Judge Joseph R. Goodwin); Mullins v. Ethicon. Inc.,
117 F. Supp. 3d 810(SD West Virginia 2015)(Judge Joseph R. Goodwin); Edwards v.
Ethicon. Inc., 30 F. Supp. 3d 554(SD West Virginia 2014)(Judge Joseph R. Goodwin);
Lewis v. Johnson & Johnson. 991 F. Supp. 2d 748(SD West Virginia 2014)(Judge Joseph
R. Goodwin); GALLEHUGH v. ETHICON. INC.. No: 12-CV-001838(SD West Virginia
2017)(Judge Joseph R. Goodwin); Holmes v. ETHICON. INC.. No 12-CV-1206(Dist.
Court, SD West Virginia 2017)(Judge Joseph R. Goodwin); Aldrich v. ETHICON. INC..
No: 12-CV-001364(Dist. Court, SD West Virginia(2017)(Judge Joseph R. Goodwin);
SYMANK v. ETHICON. INC., 12-CV-001836(SD West Virginia 2017)(Judge Joseph R.
Goodwin); Haddon v. ETHICON. INC.. No: 12-CV-02200(SD West Virginia 2017)(Judge
Joseph R. Goodwin); SOLTANSHAHI v. ETHICON. INC.. 12-CV-02688(SD West Virginia
2017)(Judge Joseph R. Goodwin); POCZTOWSKI v. ETHICON. INC.. No: 12-CV01470(SD West Virginia 2017)(Judge Joseph R. Goodwin); Kowalski v. ETHICON. INC..
No' 12-CV-01323(SD West Virginia 2017)(Judge Joseph R. Goodwin); Smallwood v.
ETHICON. INC.. No: 12-CV-01662(SD West Virginia 2017)(Judge Joseph R. Goodwin);
Higgins v. ETHICON. INC.. No: 12-CV-01365(SD West Virginia 2017)(Judge Joseph R.
Goodwin); Toennies v. ETHICON. INC.. No: 12-CV-02687(SD West Virginia 2017)(Judge
Joseph R. Goodwin); Ferguson v. ETHICON. INC.. No: 12-CV-01544(SD West Virginia
2017)(Judge Joseph R. Goodwin); Lewis v. ETHICON. INC.. No: 12-CV-0430l(SD West
Virginia 2013)(Judge Joseph R. Goodwin )(Judge Joseph R. Goodwin); Wilson v.
ETHICON. INC.. No: 12-CV-02099(SD West Virginia 2017)(Judge Joseph R. Goodwin);
Clayton v. ETHICON. INC.. No: 12'CV-00489(SD West Virginia 2017)(Judge Joseph R.
Goodwin); Martin v. ETHICON. INC.. No: 12-CV-01495(SD West Virginia 2017)(Judge
27

Joseph R. Goodwin); Bates v. ETHICON. INC.. No: 12-CV-2020(SD West Virginia 2017)
(Judge Joseph R. Goodwin); RASPS v. ETHICON. INC.. No: 12-CV-01599(SD West
Virginia 2017)(Judge Joseph R. Goodwin ); Bennett v. ETHICON. INC.. No: 12-CV00497(SD West Virginia 2017)(Judge Joseph R. Goodwin); Garrett v. ETHICON. INC..
No: 12-CV-09075(SD West Virginia 2019)(Judge Joseph R. Goodwin); Wavnick v
ETHICON. INC.. No: 12-CV-0115l(SD West Virginia 2017)(Judge Joseph R. Goodwin);
Tavlor v. ETHICON. INC.. No: No: 12-CV-00376(SD West Virginia 2017(Judge Joseph R.
Goodwin) etc. See Petoitioner’s Appendixs L and M.
On APRIL 11.2018. U.S. District Court For The Southern District of West Virginia
Judge JOSEPH R. GOODWIN also issued a ad hoc non-medical expert order to all Class
and Non-Class Members on pending related Federal Litigation regarding the
Respondent(s) ETHICON Polypropylene(ie, COMMON PLASTIC) non-dissolving Vaginal
Mesh Products. That unless the Female Plaintiffs surgically remove the Respondent(s)
ETHICON well-known defective, toxic, and dangerous Polypropylene Vaginal Mesh
Products in the Plaintiffs Vaginas that has grown and adherred to their vagina walls and
other internal organs. That U.S. District Court Judge JOSEPH R. GOODWIN was going
to dismiss all their Federal Lawsuits against Respondent(s) ETHICON contrary to the
overwhelming evidence from actual licensed Medical Experts that is was not possible to
safely remove the Respondent(s) ETHICON Polypropylene Vaginal Mesh Products just
like this Petitioner(s)s Medical Experts advised this Petitioner(s) that they could not
remove it from inside his body because it has adherred to the Petitioner(s)s organs inside
his body and/or that he would never survive the removal surgery. See Appendix L and M.

28

CONCLUSION
WHEREFORE, This Petitioner’s Pro Se Petition For a Writ of Certiorari should be
granted. By issuing an Order GRANTING this Petition For a Writ of Certiorari. Because
this Petitioner has proven the proceedings involves a serious Federal Questions of Law
and! (l) Issue an opinion/ruling of Great Public Importance as to whether both the U.S.
District Court Judge and U.S. Fourth Circuit Court of Appeals Justices should have
issued a opinion/order on whether the Respondent Ethicon Corporate Attorneys
knowingly, intentionally and in bad faith committed Fraud Upon the Court to wrongfully
obtain a summary judgment based upon the overwhelming evidence against said
Corporate Attorneys over Petitioner(s) written objections/pleadings by Right,' (2) Issue an
opinion/ruling of Great Public Importance as to whether both U.S. District Court Judge
and U.S. Fourth Circuit Court of Appeals Justices opinion was contrary to, conflicts with,
or unreasonably applied Federal Law and Fraud Upon the Court as determined by the
U.S. Supreme Court, as all circumstances should dictate and Justice would so demand.
Date:.

!1L2^

CC- Respondent
File

PETITIONER IN PRO PER
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

29

